Judd E. Stone II
Solicitor General

(512) 936-2834
Judd.Stone@oag.texas.gov

March 5, 2021
Via E-File
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

PHI Air Medical, LLC v. Texas Mutual Insurance Company, et al., No.
20-748

Dear Mr. Harris:
We represent respondent Texas Department of Insurance, Division of Workers’
Compensation. Briefs in opposition to the petition for certiorari are currently due
March 8, 2021. Pursuant to Supreme Court Rule 30.4, we respectfully move for a 15day extension of time for respondents to file briefs in opposition in this matter.
Counsel of record for the Division was involved in a car accident on February 24
that required medical attention. This accident interrupted counsel’s ability to attend
to numerous pressing litigation matters over several days, including the brief due
next week in this matter. An additional 15-day period will enable counsel to properly
coordinate with co-counsel and finalize briefs appropriately.
Counsel for petitioner PHI Air Medical, LLC, has consented to the requested
extension.
Respectfully submitted.
/s/ Judd E. Stone II
Judd E. Stone II
Solicitor General
P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

Page 2

cc: Paul D. Clement (via e-mail)

Danielle Spinelli (via e-mail)

